No. 20-979
IN THE

Supreme Court of the United States
PANKAJKUMAR S. PATEL and JYOTSNABEN P. PATEL,
Petitioners,
v.
MERRICK B. GARLAND, ATTORNEY GENERAL,
Respondent.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF SERVICE
I, Thomas G. Sprankling, a member of the bar of this Court, hereby certify that,
on this 31st day of August, 2021, all parties required to be served have been served
copies of the Brief for Petitioners in this matter by overnight courier to the address
below.
BRIAN H. FLETCHER
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2203
SupremeCtbriefs@usdoj.gov

THOMAS G. SPRANKLING
WILMER CUTLER PICKERING
HALE AND DORR LLP
2600 El Camino Real, Suite 400
Palo Alto, CA 94306
(650) 858-6000
thomas.sprankling@wilmerhale.com

